                               CLOSEOUT FOR M96050015
        On May 9,1996, OIG received a call, which was followed by a package, fi-om the
complainant.' The package consisted of e-mail correspondence, primarily with the NSF
program d ~ e c t o r . ~The complainant explained that she had submitted an application on
FastL,ane, an electronic submission forum operated by NSF. She followed her electronic
submission with requests to her professors to submit letters of recommendations to NSF on her
behall. After she did not receive an award, she contacted the institution3that contracted with
NSF to manage their Graduate Fellowship applications to request a copy of the panel review
sheet. She learned that her application had not been reviewed. In a follow-up conversation
with the institution, the complainant said they informed her that her application was on the test
server. The test server is a NSF on-line site similar to FastL,ane that allowed an applicant to
practice with the various application forms. The subject said the institution told her that the
program director would review her application.
        The complainant wrote to the program director to inquire about the review of her
application. The program director informed the complainant that the circumstances of her
case, not her application, were reviewed. The program director wrote that there were three
warnings that appeared on her computer screen that she should have seen to indicate that she
was using the test server, not FastLane. The program director advised her that her
recommendation letters arrived, but it was not unusual for supplementary materials to arrive
without an application and that NSF did not pursue these instances. The program director
informed the complainant that her case was given careful deliberation, but that in "fairness to all
applicants, we conclude that it would not be reasonable to provide a special review of your
application" as this would create an "extreme departure fiom our established procedures." The
program director added NSF would be happy to assist her in the preparation of an application
for next year. The complainant insisted that she did not use the test site, would not have
missed those warnings, and that she did not appreciate being blamed for NSF's
mistake. Unfortunately, the complainant admitted that her university no longer had computer
archives of users of the FastLme server fi-omthe time in question to prove her case.
        OIG spoke with the NSF's program manager of ~astL,ane~       who explained that there
have been warnings in place on the test server's graduate fellowship page since its inception in
July 1995. She indicated that there had only been one instance of someone submitting to the
test server. She was not aware of any method, e.g., keystrokes or mouse-clicks, that allowed



    ' (footnote redacted).
    '(footnote redacted).
     (footnote redacted).
     (footnote redacted).

                                           Page 1 of 2
                               CLOSEOUT FOR M96050015


one to transfer to the test server fiom FastLane unintentionally, apart from accidentally clicking
on the test server's link.
         OIG went to both the FastLane and test server sites. The test server did have several
warnings, in big letters, at the top of each of the first few pages. It is improbable that one
would be able to create a new application without seeing them. However, if one did manage to
get beyond the warnings and create a new application, one could then save that page's internet
address and return to that page to edit, compose, and submit a proposal without seeing hrther
warnings. The internet address of the test server was given, and a link provided to take one
there, on one of the FastLane introductory pages with the suggestion that the applicant may go
to the test server to review working prototypes.
       OIG concluded that the complainant must have inadvertently submitted her proposal
on the test server. OIG found no evidence that the program director performed
improperly. The program director offered the complainant encouragement to reapply this year
and offered to transfer the necessary supplementary materials fiom her application of last
year. The complainant has agreed to do so.
        This inquiry is closed and no m h e r action will be taken on this case.



cc: StafFScientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 2 of 2
